     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

March 25, 2010

Report Number: A-07-09-00311

Ms. Sandy Coston
President and Chief Executive Officer
First Coast Service Options, Inc.
532 Riverside Avenue
Jacksonville, FL 32202

Dear Ms. Coston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Contractor’s Pension Segmentation
Requirements at First Coast Service Options, Inc., for the Period January 1, 2003, to
January 1, 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00311
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


    REVIEW OF MEDICARE
   CONTRACTOR’S PENSION
SEGMENTATION REQUIREMENTS
   AT FIRST COAST SERVICE
OPTIONS, INC., FOR THE PERIOD
     JANUARY 1, 2003, TO
       JANUARY 1, 2008




                       Daniel R. Levinson
                        Inspector General

                          March 2010
                         A-07-09-00311
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

First Coast Service Options, Inc., and Medicare

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

FCSO participates in a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

In resolution of our prior pension segmentation audit, FCSO executed a pension closing
agreement with CMS to establish a final settlement of the January 1, 2003, Medicare segment
asset base.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated specific segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether FCSO complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the January 1, 2003, Medicare segment asset base established by an
       executed pension closing agreement with CMS, and

   •   updating the Medicare segment’s assets from January 1, 2003, to January 1, 2008.

SUMMARY OF FINDINGS

FCSO properly implemented the January 1, 2003, Medicare segment asset base established by an
executed pension closing agreement with CMS. However, FCSO did not always comply with
the Medicare contracts’ pension segmentation requirements when updating Medicare segment


                                                 i
assets to January 1, 2008. As a result, FCSO overstated the Medicare segment pension assets by
$637,976. The overstatement occurred primarily because FCSO used an incorrect
methodology to compute the segment’s 2003 investment earnings, less administrative expenses.

RECOMMENDATIONS

We recommend that FCSO:

   •   decrease Medicare segment pension assets as of January 1, 2008, by $637,976 and

   •   implement controls to ensure that the Medicare segment’s assets are updated in
       accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our recommendations. FCSO’s
comments are included in their entirety as Appendix B.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              First Coast Service Options, Inc., and Medicare .................................................... 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          PENSION CLOSING AGREEMENT................................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Earnings, Net Expenses Overstated ........................................................................ 4
              Contributions and Transferred Prepayment Credits Understated ........................... 4
              Net Transfers Understated ...................................................................................... 5
              Benefit Payments Understated ................................................................................ 5

          RECOMMENDATIONS .................................................................................................... 5

          AUDITEE COMMENTS.................................................................................................... 5

OTHER MATTER........................................................................................................................ 5

APPENDIXES

          A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR
             FIRST COAST SERVICE OPTIONS, INC., FOR THE PERIOD
             JANUARY 1, 2003, TO JANUARY 1, 2008

          B: AUDITEE COMMENTS




                                                                     iii
          Glossary of Abbreviations and Acronyms

CAS    Cost Accounting Standards
CMS    Centers for Medicare & Medicaid Services
FAR    Federal Acquisition Regulation
FCSO   First Coast Service Options, Inc.
WAV    weighted average value




                              iv
                                                INTRODUCTION

BACKGROUND

First Coast Service Options, Inc., and Medicare

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS). 1

FCSO participates in a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms. 2

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

In resolution of our prior pension segmentation audit (A-07-04-00172, issued
February 8, 2005), FCSO executed a pension closing agreement with CMS to establish a final
settlement of the January 1, 2003, Medicare segment asset base.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

1
 FCSO’s parent company, Blue Cross Blue Shield of Florida, Inc., novated the contracts to FCSO effective
October 1, 2003. Prior to that, FCSO managed the contracts by special power of attorney on behalf of its parent
company.
2
    FCSO participates in employee benefit plans of its parent company, such as the defined benefit pension plan.


                                                           1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether FCSO complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    implementing the January 1, 2003, Medicare segment asset base established by an
        executed pension closing agreement with CMS, and

   •    updating the Medicare segment’s assets from January 1, 2003, to January 1, 2008.

Scope

We reviewed FCSO’s implementation of the pension closing agreement, identification of its
Medicare segment, and update of the Medicare segment’s assets from January 1, 2003, to
January 1, 2008.

Achieving our objective did not require us to review FCSO’s overall internal control structure.
However, we reviewed controls relating to the implementation of the pension closing agreement,
the identification of the Medicare segment, and the update of the Medicare segment’s assets.

We performed fieldwork at FCSO’s office in Jacksonville, Florida, during February and
March 2009.

Methodology

To accomplish our objective, we did the following:

   •     We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •     We reviewed Closing Agreement No. PEN-01 executed between CMS and FCSO. We
         used this information to identify the Medicare segment assets as of January 1, 2003.

   •     We reviewed the annual actuarial valuation reports prepared by FCSO’s actuarial
         consulting firm, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Medicare segment assets.

   •     We obtained and reviewed the pension plan documents and Department of
         Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
         assets.

   •     We interviewed FCSO staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.


                                               2
   •    We reviewed FCSO’s accounting records to verify the Medicare segment identification
        and benefit payments made to the Medicare segment.

   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment assets as of January 1, 2008.

   •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of FCSO’s pension costs claimed for
Medicare reimbursement (A-07-09-00312) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

FCSO properly implemented the January 1, 2003, Medicare segment asset base established by an
executed pension closing agreement with CMS. However, FCSO did not always comply with
the Medicare contracts’ pension segmentation requirements when updating Medicare segment
assets to January 1, 2008. As a result, FCSO overstated the Medicare segment pension assets by
$637,976. The overstatement occurred primarily because FCSO used an incorrect
methodology to compute the segment’s 2003 investment earnings, less administrative expenses.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 2003, to
January 1, 2008, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

                            Table 1: Summary of Audit Adjustments
                                                     Per OIG      Per FCSO          Difference
Update of Medicare Segment Assets
  Earnings, net expenses                            $24,722,708   $26,344,032      ($1,621,324)
  Contributions and Transferred Prepayment Credits   25,602,368    25,145,133           457,235
  Transfers                                        (13,403,699) (14,054,249)            650,550
  Benefit Payments                                 (22,602,938) (22,478,501)          (124,437)
Overstatement of Medicare segment assets                                             ($637,976)




                                               3
PENSION CLOSING AGREEMENT

FCSO executed a pension closing agreement with CMS to establish a final settlement of the
January 1, 2003, Medicare segment asset base. FCSO properly used the January 1, 2003, closing
agreement Medicare segment asset base in its computations.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts state that “… the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value (WAV) of assets to total company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Earnings, Net Expenses Overstated

FCSO overstated investment earnings, less administrative expenses, by $1,621,324 for the
Medicare segment. The overstatement occurred primarily because FCSO used an incorrect
methodology to determine the segment’s 2003 earnings and expenses. Because of this error, as
well as misstatements in the values of other asset update components (all discussed below),
FCSO misstated the Medicare segment asset base throughout the update period, leading to
incorrect earnings and expense allocations.

In our audited update, we allocated earnings and expenses based on the applicable CAS
requirements. The overstatement of earnings and expenses led to an overstatement of Medicare
segment assets of $1,621,324.

Contributions and Transferred Prepayment Credits Understated

FCSO understated contributions and transferred prepayment credits by $457,235 for the
Medicare segment. The understatement was due to incorrect calculations of assigned pension




                                                 4
costs which were caused by FCSO’s misstatements of the Medicare segment asset base during
the audit period. As a result, FCSO understated the Medicare segment assets by $457,235.

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs because the credits were available at the beginning of the year, and then
updated any remaining credits with interest to the next measurement (valuation) date. We then
allocated contributions as needed to assigned pension costs as of the date of deposit.

Net Transfers Understated

FCSO understated the participant transfer adjustments in its update of Medicare segment assets
by $650,550. FCSO made adjustments for transfers in its update of segment assets; however,
FCSO incorrectly identified the participants who transferred in and out of the segment. As a
result, FCSO understated its Medicare segment assets by $650,550.

Benefit Payments Understated

FCSO understated benefit payments by $124,437 for the Medicare segment because it did not
include annuity payments made to Medicare segment participants as required by CAS
413.50(c)(7). In compliance with the CAS, we based the Medicare segment’s benefit payments
on actual payments to Medicare segment retirees. As a result of FCSO’s understatement of
Medicare segment benefit payments, Medicare segment assets are overstated by $124,437.

RECOMMENDATIONS

We recommend that FCSO:

   •   decrease Medicare segment pension assets as of January 1, 2008, by $637,976 and

   •   implement controls to ensure that the Medicare segment’s assets are updated in
       accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our recommendations. FCSO’s
comments are included in their entirety as Appendix B.

                                      OTHER MATTER

During our review, we determined that FCSO properly identified $3,133,668 of accumulated
unallowable unfunded pension costs ($877,488 as an unallowable component of Medicare
segment pension costs and $2,256,180 as an unallowable component of the “Other” segment
pension costs) as of January 1, 2008.




                                                5
APPENDIXES
                                                                                                      Page 1 of2

                   APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS 

                             FOR FmST COAST SERVICE OPTIONS, INC., 

                        FOR THE PERIOD JANUARY 1,2003, TO JANUARY 1, 2008 


             Description           I        I   Total Company      I   "Other" Segment      I   Medicare Segment

Assets January 1,2003                  11           $341,383,271           $302,636,860               $38,746,411

Transferred Prepayment Credits         21                                    (4,308,849)               4,308,849
                                       31            72,013,397 °            72,013,397
Contributions
Earni!:Jgs                             41            60,121,854              52,917,467                         °
                                                                                                        7,204,387
Benefit Payments                       51           (45,301,270             (35,628, III               (9,673,159
Expenses                               61            (1,371,084)             (1,206,787)                 (164,297)
                                       71                                     3,588,954                (3,588,954)
Transfers
                                                                °
Assets January 1,2004                               426,846,168    I        390,012,931     I         36,833,237

                                                                             (4,657,241)               4,657,241
Transferred Prepay!!!ent Credits
                                                     66,154,448 °            66,154,448
Contributions
Earnings                                             43,862,345              39,499,696                         °
                                                                                                        4,362,649
Benefit Payments                                    (25,901,786)            (25,254,773)                 (647,013)
Expenses                                             (1,649,935)             (1,485,829)                 (164,106)
                                                                              2,153,594                (2,153,594
Transfers
                                                                °
Assets January 1,2005                               509,311,240    I        466,422,826     I         42,888,414

                                                                             (5,176,549)               5,176,549
Transferred Prepayment Credits
                                                     53,032,360 °            53,032,360
Contributions
Earnings                                             37,228,744              33,679,381                         °
                                                                                                        3,549,363
Benefit Payments                                    (30,797,690)            (28,846,301 )              (1,951,389)
Expenses                                             (1,576,788)             (1,426,458)                 (150,330
                                                                              1,392,207                (1,392,207)
Transfers
                                                                °
Assets January 1,2006                       I       567,197,866    I        519,077,466     I         48,120,400

Transferred Prepayment Credits                                               (5,704,239)               5,704,239
                                                     15,000,000 °            15,000,000
Contributions
Earni!:Jgs                                           67,020,286              60,719,574                         °
                                                                                                        6,300,712
Benefit Payments                                    (45,539,885             (40,256,134                (5,283,751
Expenses                                             (1,933,028)             (1,751,300)                 (181,728)
                                                                              4,111,937                (4,111,937
Transfers
                                                                °
Assets January 1,2007                               601,745,239    I        551,197,304     I         50,547,935

                                                                             (5,755,490)               5,755,490
Transferred Prepayment Credits
                                                                °
Contributions
Earnings                                             44,638,275 °                     °
                                                                             40,436,878                         °
                                                                                                        4,201,397
Benefit Payments                                    (60,713,949)            (55,666,323)               (5,047,626)
Expenses                                             (2,500,390)             (2,265,051)                 (235,339)
                                                                              2,157,007                (2,157,007
Transfers
                                                                °
Assets January 1,2008                               $583,169,175 1         $530,1 04,325 1            $53,064,850
Per FCSO                               81           $583,169,175 1         $529,466,349 1             $53,702,826
Asset Variance                         91                     $0 1             $637,976 1              ($637,976)
                                            I                      I                        I
                                                                                                                           Page 20f2


FOOTNOTES

 .lL We obtained the Medicare segment assets as of January 1, 2003, from Closing Agreement No. PEN-Ol.      The Centers for
   Medicare and Medicaid Services and First Coast Service Options, Inc. (FCSO), entered into and executed this closing
   agreement in order to establish a final settlement of the January 1, 2003, Medicare segment asset base. The amOlmts shown
   for the "Other" segment represent the difference between the Total Company and the Medicare segment. All pension assets
   are shown at market value.


 21 	Prepayment credits represent fllllds available to satisfy future fllllding requirements and are applied to future funding 

   requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment 

   credits are transferred to the Medicare segment as needed to cover fllllding requirements. 


 3/ We obtained Total Company contribution amollllts from the actuarial valuation reports and Department of LaborlIntemaI
    Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare segment based on the ratio of the
    Medicare segment fllllding target divided by the Total Company fllllding target. Contributions in excess of the fllllding
    targets were treated as prepayment credits and accollllted for in the "Other" segment lllltil needed to flllld pension costs in the
    future.

 4/ We obtained investment earnings from actuarial valuation reports and docwnents prepared by FCSO 's actuarial consulting
    firm. We allocated net investment earnings based on the ratio of the segment's weighted average value (WAV) of assets to
    total company WAV of assets as required by the Cost Accounting Standards (CAS).

 5/ We based the Medicare segment's benefit payments on actual payments to Medicare segment retirees. We obtained 

    information on the benefit payments from docwnents provided by FCSO. 


 6/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 7/ We identified participant transfers between segments by comparing valuation data files provided by FCSO. Asset transfers
    were equal to the actuarial liability determined llllder the accrued benefit cost method in accordance with the CAS.

 8/ We obtained total asset amollllts as of January 1, 2008, from docwnents prepared by FCSO's actuarial consulting firm.

 9/ The asset variance represents the difference between our calculation of Medicare segment assets and FCSO's calculation of
    Medicare segment assets.
                                 APPENDIX B: AUDITEE COMMENTS 





                                                                                              aws/
                                                                                    --_._-..../
                                                                                                    MEDICARE


                                                                                                     Sandy CoSlon
                                                                                                    CEO & Pres~ent
                                                                                      First Ceasl SeMCII Opliol\1o, Inc;.
                                                                                             Sandy.CoslOn@fClo_com


March 12, 2010

Mr. Patric k J Cogley
Regional Inspector General for Audi t Services
Ottice of Inspector General
Office of Audit Services
601 East 12'" Street, Room 0429
Kansas City , Missouri 64106

Dear Mr. Cogley:


Refe rence: A· 07 -09-00311

The purpose 01 this letter is to submit our response to the Department of Health and Human Services OffiCe of
Inspector General's draft report lor the review 01 First Coast Service Options' (FCSO) segmentation of Medicare
pension assets tor fiscal years 2004-2007.

We agree with the report finding regard ing the overstatement of Medicare segment pension assets by $6J7,976
and wili l ake the fol lowing actions to ensure the report recommendations are implemented :

          t) 	 Mak.e the adjustments necessary 10 decrease Ihe Medicare segment pension assets as of
               January 1, 2008 by $6J7,9 76

Additionally. we are working with our actuaries to ensure pension costs are claimed in accordance with applicable
Medicare contractual requirements.

We appreciate the opportun ity to review and provide our comments prior to release of the final report If you have
any questions regarding our response, please contact Mr. Gre gory England at 904 -7 91-8J64.

Sincerely,

  ;Ic.r>tV.t-- ('~*"--
Sandy Coston

cc; 	     Jona1l1an Hogan. VP & CFO, FCSO
          Gregory England, Director o f Internal Audit, FCSO
          Brenda Francisco. Director of Medicare Reporting, FCSO
          Cheryl Mose, VP & Corporate Controller, BCBSF
          Jay Pinkerton. VP, JP Morgan



532 R",ersidc Avenue , Jad< . onYllle, Flond ~ 32202
P 0 , Bo ~ 45274. Jad<.onv'I.... Florid. 322~2 - 5274
T,I 904·791-3409
Fax. 904·36I-O ~72
www fcaocom
